                                                                O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                           90 - 7 T H S TREET, S UITE 3-650
                                                                            S AN F RANCISCO , CA 94103



June 13, 2012

TO:             Nancy Hutchins
                Regional Program Manager
                Administration for Children and Families


FROM:           /Lori A. Ahlstrand/
                Regional Inspector General for Audit Services


SUBJECT:        First A.M.E. Child Development Center’s Head Start Program Governance Was
                Not Fully in Accordance With Federal Requirements (A-09-11-01003)


The attached final report provides the results of our review of First A.M.E. Child Development
Center’s governance of its Head Start program. We performed this review in response to a
request from the Administration for Children and Families.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Doug Preussler, Audit Manager, at (415) 437-8360 or through email at
Doug.Preussler@oig.hhs.gov. We look forward to receiving your final management decision
within 6 months. Please refer to report number A-09-11-01003 in all correspondence.


Attachment


cc:

Ann Linehan
Deputy Director of Office of Head Start
Administration for Children and Families
Page 2 – Nancy Hutchins


Yolanda Wise
Head Start Program Specialist
Administration for Children and Families

Janice L. Samuel
Director of Office of Financial Services
Administration for Children and Families
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL



     FIRST A.M.E. CHILD
   DEVELOPMENT CENTER’S
    HEAD START PROGRAM
 GOVERNANCE WAS NOT FULLY
    IN ACCORDANCE WITH
   FEDERAL REQUIREMENTS




                       Daniel R. Levinson
                        Inspector General

                           June 2012
                         A-09-11-01003
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of children from families with low incomes
by providing educational, health, nutritional, and social services.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start and Early Head Start
programs. We refer collectively to both programs as the Head Start program. In fiscal year (FY)
2010, Congress appropriated $7.2 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

First A.M.E. Child Development Center (the Center), a nonprofit organization founded in 1980,
promotes child and family development services in the central area and Rainier Valley of Seattle,
Washington. For the period November 1, 2009, through October 31, 2011, OHS awarded
$3,760,556 in Federal Head Start funds to the Center to provide services for 264 children. On
July 1, 2009, the Center received $149,109 in Recovery Act funding.

The Head Start Act requires that the governing body of a Head Start agency have legal and fiscal
responsibility for administering and overseeing Head Start programs, including the safeguarding
of Federal funds; adopt practices that ensure active, independent, and informed governance; and
fully participate in the development, planning, and evaluation of Head Start programs.

OBJECTIVE

Our objective was to determine whether the Center’s Head Start program governance was in
accordance with Federal requirements.

SUMMARY OF FINDING

The Center’s Head Start program governance was not fully in accordance with Federal
requirements. A majority of board members, including the licensed attorney, did not attend all of
the board of directors meetings. Because of the board members’ lack of participation, the
governing body may not have ensured active and informed governance of the Center or fully
participated in the development, planning, and evaluation of the Center’s Head Start programs.




                                                i
RECOMMENDATION

We recommend that ACF take steps to ensure that the Center has adequate Head Start program
governance. Specifically, ACF should ensure that a majority of the Center’s board members,
including the licensed attorney, attend board of directors meetings.

FIRST A.M.E. CHILD DEVELOPMENT CENTER COMMENTS

In its written comments on our draft report, the Center concurred with our finding and provided
information on actions taken to ensure adequate Head Start program governance. The Center’s
comments are included in their entirety as Appendix A.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In its written comments on our draft report, ACF agreed with our finding and recommendation.
ACF stated that it would work with the Center to correct the discrepancies through action plans
and onsite verification visits. ACF’s comments are included in their entirety as Appendix B.




                                               ii
                                                  TABLE OF CONTENTS
                                                                                                                                  Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program ............................................................................................1
              First A.M.E. Child Development Center ...........................................................1
              Federal Requirements for Head Start Grantees .................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDING AND RECOMMENDATION ...............................................................................3

          BOARD MEMBERS DID NOT FULLY PARTICIPATE IN
           BOARD OF DIRECTORS MEETINGS ....................................................................3

          RECOMMENDATION .................................................................................................3

          FIRST A.M.E. CHILD DEVELOPMENT CENTER COMMENTS ............................3

          ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS ..................3

OTHER MATTERS ................................................................................................................4

          FEDERAL GOVERNMENT DEBT .............................................................................4

          IN-KIND CONTRIBUTIONS .......................................................................................4

APPENDIXES

          A: FIRST A.M.E. CHILD DEVELOPMENT CENTER COMMENTS

          B: ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of children from families with low incomes
by providing educational, health, nutritional, and social services. In 1994, the Head Start
program was expanded to establish Early Head Start, which serves children from birth to 3 years
of age. We refer collectively to both programs as the Head Start program.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families (ACF), Office of Head Start (OHS), administers the Head Start program.
In fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

First A.M.E. Child Development Center

First A.M.E. Child Development Center (the Center), a nonprofit organization founded in 1980,
promotes child and family development services in the central area and Rainier Valley of Seattle,
Washington. The Center’s mission is to operate child development programs that will enhance
the social, emotional, physical, and intellectual development of preschool children.

For the period November 1, 2009, through October 31, 2011, OHS awarded $3,760,556 in
Federal Head Start funds to the Center to provide services for 264 children. On July 1, 2009, the
Center received $149,109 in Recovery Act funding.

Federal Requirements for Head Start Grantees

The Head Start Program Performance Standards (45 CFR parts 1301 through 1311) establish
regulations applicable to program operations, administration, and grants management for all
grants awarded under the Head Start Act. Part 1301 establishes regulations applicable to
program administration and grants management for grantees.




                                                1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Center’s Head Start program governance was in
accordance with Federal requirements.

Scope

We performed this review in response to a request from OHS. We reviewed documents related
to the Center’s organizational structure for the period December 1, 2009, through February 15,
2011. We did not perform an overall assessment of the Center’s internal control structure.
However, we conducted a limited review of the Center’s internal controls as they related to our
objective.

We performed fieldwork at the Center’s administrative office in Seattle, Washington.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws and regulations;

   •    reviewed the Center’s grant award and supporting documentation;

   •    reviewed the Center’s audited financial statements for the FYs ended October 31, 2007,
        October 31, 2008, and October 31, 2009;

   •    reviewed the Center’s unaudited financial statements for the FY ended October 31, 2010;

   •    reviewed the Center’s board of directors meeting minutes, articles of incorporation, and
        bylaws; and

   •    interviewed the Center’s interim executive director, finance director, human resources
        manager, and chair of the board of directors.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




                                                2
                           FINDING AND RECOMMENDATION

The Center’s Head Start program governance was not fully in accordance with Federal
requirements. A majority of board members, including the licensed attorney, did not attend all of
the board of directors meetings.

BOARD MEMBERS DID NOT FULLY PARTICIPATE IN
BOARD OF DIRECTORS MEETINGS

Section 642(c)(1)(B) of the Head Start Act requires that a Head Start agency establish and
maintain a formal structure for program governance that includes a governing body composed of,
among other required members, not less than one member who is a licensed attorney familiar
with issues that come before the governing body.

Section 642(c)(1)(E) of the Head Start Act requires that the governing body (1) have legal and
fiscal responsibility for administering and overseeing Head Start programs, including the
safeguarding of Federal funds; (2) adopt practices that ensure active, independent, and informed
governance of the Head Start agency; and (3) fully participate in the development, planning, and
evaluation of Head Start programs.

A majority of the Center’s board members did not attend seven of the eight board of directors
meetings held during the period December 2009 through February 2011, as required by the
Center’s bylaws. One board member, the licensed attorney, did not attend any of the eight
meetings. Because of the board members’ lack of participation, the governing body may not
have ensured active and informed governance of the Center or fully participated in the
development, planning, and evaluation of the Center’s Head Start programs.

RECOMMENDATION

We recommend that ACF take steps to ensure that the Center has adequate Head Start program
governance. Specifically, ACF should ensure that a majority of the Center’s board members,
including the licensed attorney, attend board of director meetings.

FIRST A.M.E. CHILD DEVELOPMENT CENTER COMMENTS

In its written comments on our draft report, the Center concurred with our finding and provided
information on actions taken to ensure adequate Head Start program governance. The Center’s
comments are included in their entirety as Appendix A.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In its written comments on our draft report, ACF agreed with our finding and recommendation.
ACF stated that it would work with the Center to correct the discrepancies through action plans
and onsite verification visits. ACF’s comments are included in their entirety as Appendix B.




                                               3
                                     OTHER MATTERS

FEDERAL GOVERNMENT DEBT

For the period November 1, 2010, through October 31, 2011, OHS placed the Center in high-risk
status because of an unpaid Federal Government debt for unallowable Head Start costs claimed
in a prior period. Because of the high-risk status, OHS limited the Center’s Head Start award to
$1,258,259.

The Center’s original debt owed to the Federal Government was $101,477. Starting in
May 2007, HHS established with the Center a payment plan of $3,389 per month. However, the
Center was unable to make the required monthly payments. Therefore, in March 2009, HHS
reduced the monthly payment to $1,252, with the debt to be repaid by March 2014. The Center
was still unable to make the required monthly payments for the period September 2010 through
February 2011. Specifically, the Center did not make payments for 3 months and made partial
payments for 3 other months. As of February 2011, the outstanding debt owed to the Federal
Government was $42,061.

IN-KIND CONTRIBUTIONS

The Head Start Act requires that a Head Start agency provide 20 percent of the total costs (i.e.,
the non-Federal share) of the Head Start program unless ACF waived the requirement. The Head
Start Act provides that the non-Federal share may be in the form of in-kind contributions.

Pursuant to 45 CFR § 74.23, all cost sharing or matching contributions, including cash and
third-party in-kind contributions, must be verifiable from the recipient’s records. Specifically,
the value of donated space must not exceed the fair rental value of comparable space as
established by an independent appraisal of comparable space and facilities in a privately owned
building in the same locality. Volunteer services must be documented and, to the extent feasible,
supported by the same methods used by the recipient for its own employees, including time
records.

For the period November 1, 2009, through October 31, 2010, the Center claimed $622,045 for
in-kind contributions for funds received under the Head Start program. In addition, for the
period July 1, 2009, through September 30, 2010, the Center claimed $10,871 for in-kind
contributions for funds received under the Recovery Act. The table shows the types of in-kind
contributions and amounts claimed by the Center.




                                                4
                             The Center’s In-Kind Contributions

                            Type of Contribution                           Amount
       Volunteer Hours                                                     $299,885
       Rent, Utilities, Maintenance, Parking                                298,747
       Professional Fees                                                      9,074
       Building Depreciation                                                  7,148
       Repairs and Maintenance                                                7,070
       Classroom Supplies                                                     6,650
       Contractual Services                                                   4,342
          Total                                                            $632,916

We reviewed selected supporting documentation for in-kind contributions and identified the
following concerns:

   •   Of the $298,747 claimed for rent, utilities, maintenance, and parking, $214,504 was for
       donated rental space based on an October 2006 price-per-square-foot appraisal for
       commercial office spaces. This price per square foot was 19 percent higher than the
       market price as of April 2011. In addition, the Center claimed $9,100 for donated
       monthly parking at one of its centers based on an estimated monthly parking rate. This
       estimated monthly parking rate was 20 percent higher than the monthly parking rate as of
       April 2011.

   •   An approving official did not always certify volunteer hours.




                                               5
APPENDIXES 

                                                                                                       Page 1 0[2


APPENDIX A: FIRST A.ME. CHILD DEVELOPMENT CENTER COMMENTS 





                            April 27, 2012


                            Lori A Ahlstrand 

                            Regional Inspector General for Audit Services 

                            Office of Audit Services, Region IX 

   3201 E. Republican SI.
   Seattle, WA 98112        90 _7'hStreet, Suite 3-650 

                            San Francisoo, CA94103 


  Dr. Johnnie Cain          Dear Ms. Ahlstrand,
  Director

                            Report Number: A-09-11 -01003

   Board of Directors       Enclosed is First AM.E. Olild Development Center's respcnse to your letter dated
  Ms. Theresa Marie Floyd   April 16, 2012.
  Board Chair
                            We have made major strides to correct the findings to ensure that the Federal
  Mr. Ted Howard
  Treasurer/Secretary       interest is protected.

  Ms. Sebrena Burr
                            If you have any questions, please feel free to contact me at (206) 322-9600 x 26.
  Mr. Kent McKinney

  Ms. RosaJyn Robinson      Thank you.
  Ms. Deborah Cavitt




                            ~
  Ms. Cheryl Harris         sinoereIY' VlI..~~
  Ms. Lucy Winston

                            Dr' hnnie Cain
                              ector

                            Enclosure




      First A.M.E. Child
  Development Center is
  {} 501 (C)(3) agency of
        the state of
       washington.

     1/ TN 91 -1127055
                                                                                                            Page 2 0[2




                            First A.M .E. Child Development Center (FAME CDC) 

                                            Summary of Findings 

                                       Report Number: A-09-1Hll003 





First A.M.E. Child Development Center's Head Start Program Governance Was Not Fully In Accordance
with Federal Requirements

Response
Th e Board of Directors concurs with the finding. Although part icipation has fluctuated, each member is
sent reports from all service areas via e-ma il, mail, te leph one and/or in person. Add ition ally, the
Director meets with the Board of Directors on a monthly basis for agency upd ates. The Board Chair
ensures of the agency's board members participation for all meetings. The board members are actively
recruiting new members from the community. Currently, the Board of Directors has seven (7) members.

Other Matters

FEDERAL GOVERNMENT DEBT 

FAME CDC's Board of Directors has entered into a commitment to retire the Federal Government Debt. 

A comm ittee was estab lished in February 2012 and it comprised of five (5) Board Members and four (4) 

community partners, paired with Friends of FAME CDC. The purpose of this co llaboration is to retire the 

debt 01 approximately $37,500. To date, $3.500 has been rai sed through the efforts ol t he partnership. 

An additional $2,900 has been committed to the retirement of the debt. Several activities have been 

planned to retire the debt. The committee wi ll monitor the debt during its monthly meeting. Th e 

following planned activities are as follows: 

            •    Partnership with community leaders
            •    Seahawks fundraising·June 22, 2012
            •    Committee pledges 01 responsibility ($1,000 each)
            •    Choir performance
Previous Board Members have agreed to be part of these efforts. Ultimately, ou r efforts will result in
the complete retirement of the Federal Government Debt. A "war chest" of funds is being established
or the debt retirement.

IN-KIND CONTRIBUTIONS
FAME CDC w ill acquire an appraisal of the donated parking, office and cla ssroom spaces that includes
utilities, maintenance, playground, lunchroom, etc. every three (3) years or as necessary to reflect the
current cost of the donations.
FAME CDC policy states that all volunteer hours sign-in sheet must be signed by the volunteer, staff with
knowledge of the hours donated and the staff supervisor must affix his/her initial before sending the
forms to accounting. Accounting wi ll return all volunteer sign-in sheets that have missing signature/s
and can only be counted when properly Signed by authorized Signors.
APPENDIX B: ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS 





        .,...E.
    ,/'./-"	 .. DEPARTMENT OF IlEALTH          & HUMAN SERVICES 	
                                                                             Administration for
                                                                             Chndren and Femmes

    \.,;" 	                                                                  2201 Sixth Avenue. MS-76
                                                                             See\Ue, WA 98121
         May23, 20l2

         Mr. Doug Preussler 

         Audit Manager 

         Office of inspector General 


         Re: Draft Report A-09-11-01003

         Dear Mr. Preussler,

         This document provide, comments on the draft Office of Inspector General's report (A-09-ll­
         01003) dated May 16, 2012 concerning the Fir,t A.M,E, Child Development Center's Head Start
         (FAME CDC) program. Both the Regional Offices ofHead Start and Grants Management agte(l
         with the findings and recommendations and we wUl work with FAME CDC to correct the
         discrepancies with action plans and on-site verification visits.



                       ()
         Sincerely,

          ~~ ~zr" l-L",\~
         Nancy Gigoux Hutchins, Ph.D. 

         Regional Program Manager 

         Office ofHead Start 

